DOCKET NO. _______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

TROY MERCK, JR.
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

CORRECTED MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Counsel for Petitioner, TROY MERCK JR., asks leave of this
Court to allow Mr. Merck to proceed in forma pauperis in this
proceeding.
Mr. Merck was found indigent by the state courts in Florida
and was allowed to proceed in forma pauperis. In the most recent
state court proceedings, Mr. Merck received the services of pro
bono counsel.
Accompanying this Motion is Petitioner’s Affidavit in
Support of Motion for Leave to Proceed in Forma Pauperis.

Pursuant to the Court’s Rule 39, counsel respectfully
requests Mr. Merck be allowed to proceed in forma pauperis.
I HEREBY CERTIFY that a true copy of the foregoing has been
furnished by United States mail, first class postage prepaid, to
Stephen D. Ake, Senior Assistant Attorney General, Office of the
Attorney General Concourse Center Rd., 3507 E. Frontage Rd.,
Tampa, FL 33607, on December 8, 2020.

/s/ Martin J. McClain
MARTIN J. McCLAIN
Fla. Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
martymcclain@earthlink.net
COUNSEL FOR PETITIONER

ATTACHMENTS

